No.

IN THE
SUPREME COURT OF THE UNITED STATES

WALLACE HAMMERLE

. — PETITIONER

(Your Name)
VS.
WARDEN DYLON RADTKE
GREEN BAY CORRCTIONAL

— RESPONDENT(S)

PROOF OF SERVICE
I, Wallace Hammerle

, do swear or declare that on this date,
, 20__ , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Wisconsin Attorney General Joshua Kaul
114 East State Capitol
Madison, WI. 53707

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

7-*7

,203d

(Signature)

RECEIVED"
JUL -8 2021

CERTIFICATE OF MAILING
If you deposit your petition for Writ of Certiorari pursuant
to 28 U.S.C. § 1746 in your prison/ institution mailing system
and attach First Class postage pre-paid or third class, and
complete and sign this statement, you will establish the filing
date of deposit in that mailing system.
I, the undersigned, hereby declare under penalty of perjury
that I placed this Petition for a Writ of Certiorari under
28 U.S.C. § 1776 in the prison/ institution mailing system with
pre-paid first class or third party postage,
on
Signed this

day of -

- ,2021

Signature

cc: file

etitioner

